SEMIANNUAL REPORT TO CONGRESS
          April 1, 2005 through September 30, 2005




                     NATIONAL
                    ENDOWMENT
                      FOR THE
                    HUMANITIES

            Office of Inspector General


    “Democracy demands wisdom and vision in its citizens”
  National Foundation on the Arts and Humanities Act of 1965   No. 33
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                          unethical conduct involving federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                      Call the OIG Hotline

                                        (202) 606-8423



                                        Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                     Fax:   (202) 606-8329


                              Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/
oig.html
     NATIONAL                                                               OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                              1100 PENNSYLVANIA AVE., NW
     FOR THE                                                                WASHINGTON, D.C. 20506
     HUMANITIES                                                             ROOM 419
                                                                            TELEPHONE(202) 606-8350
                                                                            FACSIMILE (202) 606-8329
                                                                            E-mail oig@neh.gov



                                         October 28, 2005

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Con-
gress for the second half of fiscal year 2005.

The report is submitted in accordance with the Inspector General Act of 1978, as amended.
Section 5 of the Act requires that you submit this report, with your Report of Final Action, to
the appropriate committee or subcommittee of the Congress within 30 days of its receipt. The
report provides a summary of the activities of the OIG during the six-month period ended
September 30, 2005.

During the current period, we completed and issued eight reports concerning reviews of
grantee compliance with salary and wage documentation and reporting requirements. In addi-
tion, 101 OMB Circular A-133 reports were reviewed and six overhead desk reviews were
completed. In our investigations program, we received five “Hotline” contacts. Two contacts
are open at the end of this period. We also issued a memorandum on Top Management Chal-
lenges.

I appreciate your support and look forward to working with you and all agency staff to further
our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s contribu-
tions to the humanities.

                                             Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          1

THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       1

AUDIT AND REVIEW ACTIVITIES .......................................................................................               2

TOP MANAGEMENT CHALLENGES ...................................................................................                     6

INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                              8

OTHER ACTIVITIES..............................................................................................................   10

TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        11

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 12
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      12
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      13
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
       In order to promote progress and scholarship in the humanities and the arts in the United States,
       Congress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act
       established the National Endowment for the Humanities as an independent grant-making agency of
       the federal government to support research, education, and public programs in the humanities.
       Grants are made through four divisions - Research Programs, Education Programs, Preservation and
       Access, and Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership.
       The divisions and offices also administer the We the People: NEH’s American History initiative.

       The Act that established the National Endowment for the Humanities says "The term 'humanities'
       includes, but is not limited to, the study of the following: language, both modern and classical;
       linguistics; literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the
       history, criticism, and theory of the arts; those aspects of social sciences which have humanistic
       content and employ humanistic methods; and the study and application of the humanities to the
       human environment with particular attention to reflecting our diverse heritage, traditions, and history
       and to the relevance of the humanities to the current conditions of national life."



                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established
       Offices of Inspector General in several departments and in thirty-three agencies, including the NEH.
       The NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an
       important aspect of the Act. For example, the IG:

       •    cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from
            issuing any subpoena;

       •    has access to all records of the agency;

       •    reports directly to the Chairman, and can only be removed by the Chairman, who must promptly
            advise Congress of the reasons for the removal; and

       •    reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The
       Inspector General is also responsible for keeping the Chairman and Congress fully and currently
       informed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a
       secretary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of
       Understanding detailing the procedures for the OIG to be provided with OGC legal services.
       Investigations are handled by the Inspector General, an auditor and as required by the agency’s
       Assistant General Counsel.




NEH OIG Semiannual Report                                      1                                                     September 2005
                                 AUDIT AND REVIEW ACTIVITIES

                                              LIST OF REPORTS ISSUED
     This office is responsible for external and internal audits. External auditing includes grants, pre-
     award accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk re-
     views, and on-site quality control reviews of CPA work papers. Internal efforts consist of audits,
     inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

     Following is a list of reports issued by the OIG during this reporting period. We also reviewed 101
     OMB Circular A-133 audit reports. None of the reports contained findings that needed to be reported
     to NEH management, (see Single Audit Act Reviews). The Inspector General Act of 1978, as
     amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to Bet-
     ter Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the
     “Dollar Value of Unsupported Costs”), (see Table II).


      DESK REVIEWS OF DOCUMENTATION RELATED TO                          Report Number                  Date Issued
      SALARIES AND WAGES CHARGED TO NEH GRANTS


               Massachusetts Historical Society                         OIG-05-06 (DR)                 09/28/05

               Newberry Library                                         OIG-05-07 (DR)                 09/28/05

               Chicago Historical Society                               OIG-05-08 (DR)                 09/28/05

               American Library Association                             OIG-05-09 (DR)                 09/28/05

               New York Foundation for the Arts                         OIG-05-10 (DR)                 09/28/05

               American Museum of Natural History                       OIG-05-11 (DR)                 09/28/05

               Chippewa Valley Museum                                   OIG-05-12 (DR)                 09/28/05

               The Library of America                                   OIG-05-13 (DR)                 09/28/05


      OVERHEAD DESK REVIEWS


               New York Public Library                                  NEH-05-05 (ODR)                05/26/05

               The Bill of Rights Institute                             NEH-05-06 (ODR)                08/12/05

               Heritage Preservation                                    NEH-05-07 (ODR)                07/20/05

               Amigos Library Services                                  NEH-05-08 (ODR)                08/05/05

               The Boston Athenaeum                                     NEH-05-09 (ODR)                09/12/05

               Paradigm Productions, Inc.                               NEH-05-10 (ODR)                09/30/05




NEH OIG Semiannual Report                                  2                                                 September 2005
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                                           SUMMARY OF REPORTS ISSUED

                             DESK REVIEWS OF DOCUMENTATION RELATED TO SALARIES AND
                                         WAGES CHARGED TO NEH GRANTS

   The purpose of these reviews was to determine if the grantees’ time and effort accounting policies and procedures
   meet OMB Circular A-122 requirements. The reviews were performed in accordance with the President’s Council on
   Integrity and Efficiency, Quality Standards for Inspections. We selected grantees, excluding state humanities coun-
   cils, that received significant funding during the past several years.

   We found that not one of the eight grantees reviewed had a system that fully complied with OMB Circular A-122 re-
   quirements. The OIG will be working with the grantees until they are able to demonstrate that their time and effort
   reports, procedures, and accounting system accurately account for salaries and wages claimed on federal reports.
   Each grantee had one or more of the following deficiencies with their time and effort reporting system. We found the
   same deficiencies and reported thereon in our previous semiannual report.

   1. Time and effort reports:

            (a) did not account for 100 percent of employee effort.

            (b) were not signed by employee or supervisor.

            (c) were not dated or were signed and dated weeks after the payroll period. For example,

                period ends on January 15th and reports signed on February 8th.

            (d) did not coincide with grantee pay periods.

            (e) reflected mathematical errors.

   2. Employees recorded budgetary estimates on time and effort reports in lieu of actual activity,

       (including administrative staff).

   3. NEH-funded effort was properly documented; however, accounting for cost-sharing effort

       was inadequate.

   4. Salaries posted to the general ledger were not based on the time and effort reports.

   We made various recommendations to each grantee that would effect compliance with the OMB Circular. All have
   agreed to implement our recommendations.




NEH OIG Semiannual Report                                    3                                               September 2005
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                                                             SINGLE AUDIT ACT REVIEWS

        In fiscal year 2004, the NEH spent approximately 85 percent of its annual expenditures on grantees.
        Many of the NEH grantees are covered by the Single Audit Act Amendment of 1996. Grantees
        expending $500,000 or more in federal dollars per annum are required to obtain an OMB Circular A-133
        audit.1 The OIG receives OMB Circular A-133 reports from other federal agencies (mainly the Depart-
        ment of Health and Human Services), state and local government auditors, and independent public ac-
        countants. The objective of the audit is to determine whether federal funds are expended in accordance
        with applicable laws and regulations.

        During the six-month period ended September 30, 2005, we reviewed 101 OMB Circular A-133 audit
        reports. None of the reports contained audit findings that needed to be reported to NEH management.


                                                             OVERHEAD DESK REVIEWS

        The OIG performs overhead desk reviews (ODRs) for grantees requiring indirect cost rates. The reviews
        are done in accordance with the President’s Council on Integrity and Efficiency, Quality Standards for
        Inspections. The OIG sends the results of the ODRs to the Assistant Chairman for Planning and Opera-
        tions, who negotiates the indirect cost rates with the grantees. We completed six reviews during this pe-
        riod, (see page 2).

                                                        AUDITS/REVIEWS IN PROGRESS

                                      United States Accountability of Tax Dollars Act of 2002

        The Accountability of Tax Dollars Act of 2002 requires NEH, as well as several other small agencies and
        commissions, to prepare and submit to the Congress and the Director of the U.S. Office of Management
        and Budget annual audited financial statements. NEH received a written waiver from OMB for fiscal
        year 2003 and a verbal waiver for fiscal year 2004. During the six-month period ended March 31, 2005,
        the OIG obtained the services of an independent public accounting firm (IPA). The IPA performed an
        assessment of the financial management systems and internal controls at NEH to identify weaknesses
        that could have a direct and significant effect on the financial statement audit.

        On April 8, 2005, the IPAs issued the assessment report which identified seven (7) material weaknesses
        and two (2) reportable conditions. A management letter was also issued. The IPAs performed interim
        substantive testing on the financial statements for the period ended June 30, 2005 and will resume sub-
        stantive testing and follow-up on assessment findings in mid-October.

        OIG staff hold periodic meetings with the IPAs and have visited the IPA’s office to review interim working
        papers. Also during this period, OIG staff continued to take training to provide adequate oversight of the
        audit.




                     1
                       Effective for years ending after December 31, 2003, the threshold was increased from $300,000 to $500,000. An audit is mandatory when a
                     grantee expends $500,000 of federal funds, cumulative from all federal sources, in its fiscal year.




NEH OIG Semiannual Report                                                          4                                                                             September 2005
                                    AUDIT/REVIEWS IN PROGRESS

                                         AUDIT OF ORACLE ACCOUNTING SYSTEM

   The primary objectives of the audit are to determine (1) whether the selection methodology and supporting documen-
   tation indicates the Oracle Accounting System (the System) would deliver the most, functionally (e.g., reports gener-
   ated directly from the System, user friendly, the best System for NEH); (2) whether the System complies with federal
   financial management system requirements, generally accepted accounting principles, the U.S. Standard General
   Ledger at the transaction level, and met all of the mandatory requirements of the Joint Financial Management Im-
   provement Program (JFMIP) at the time NEH contracted for the System; 3) whether pre-award and post-award con-
   tract administration was carried out adequately; and (4) the total costs of implementing the System as of
   December 31, 2004 [extended to August 31, 2005].


                                         AUDIT OF NEH’s USE OF DONATED FUNDS

   The objectives of the audit are to:

   1. Assess the adequacy of internal management controls as they pertain to the administration of donated funds.

   2. Determine if disbursements of donated funds were made in accordance with applicable laws, regulations, and
      internal NEH policies.


                   ANNUAL FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) REVIEW

   The purpose of this review is to determine NEH’s compliance with FISMA, OMB guidance on FISMA, and NIST guid-
   ance on information security. Our scope is limited to NEH IT security policies that were in effect for fiscal year 2005.
   NEH has three mission critical IT systems as identified in the Office of Information Resources Management (OIRM)
   Security Operations and Architecture dated August 29, 2005 - the NEH General Support System/Network, the Oracle
   Accounting System, and the Grants Management System. Our review will concentrate on NEH’s Plan of Action and
   Milestones, certain general controls/areas, and a mission critical system and/or subsystems of a mission critical sys-
   tem.


                            ANNUAL REVIEW OF COMPLIANCE WITH THE FEDERAL MANAGERS’
                                          FINANCIAL INTEGRITY ACT (ACT)

   The objectives of this review is to determine whether information submitted by each division director and office head
   provides reasonable assurance to the Chairman that they complied with the Act. The review covers the fiscal year
   2005. Generally these reviews take place in November or December, but because of the financial statement audit,
   NEH began the review in August 2005. Although we did not issue our report to the Chairman at September 30, 2005,
   we did issue to the Assistant Chairman for Planning and Operations a report concerning follow-up action that his
   office should address.




NEH OIG Semiannual Report                                  5                                                  September 2005
                               TOP MANAGEMENT CHALLENGES

                                         Fiscal Year Ended September 30, 2005

     Successfully Implement an Agency Financial Management System

     On September 1, 2003, NEH began using a WEB-based accounting system developed by the Oracle Corpo-
     ration. Oracle was one of several companies that had been approved by the Joint Financial Management
     Improvement Program (JFMIP) at the time NEH purchased the system. NEH encountered many problems
     implementing the new system and, to date, is not operating the state-of-the-art system that was purchased in
     an efficient manner. The main problem was that NEH began implementation of the system without any of the
     accounting staff having knowledge and experience with the U.S. Standard General Ledger. For almost
     twenty-five years, the accounting staff controlled all of NEH’s transactions through an allotment ledger. This
     ledger did not meet JFMIP requirements and preparing financial statements based on this system would have
     been very labor intensive and costly. NEH selected the Director of Administrative Services to manage the
     implementation project. Instead of hiring a systems accountant several months prior to the actual implemen-
     tation, one was not hired until the project was a few months in progress. Initially, competent accountants
     were not active in the implementation project. Consequently, NEH had to hire various contractors and ex-
     pended close to double the amount originally budgeted to complete the system implementation. During the
     approximately twenty months spent on the project, NEH staff put forth an exemplary effort to bring the system
     to a point where auditable financial statements could be produced. As of the date of this report, NEH staff still
     has a considerable amount of work to do to ensure that the books and records are in an auditable condition.
     Even if NEH receives an unqualified opinion on the financial statements, the accounting system is tainted and
     the accounting processes are flawed because of the supplemental costs and efforts that were needed to en-
     sure the production of reliable financial statements. An accounting system should require little effort at year-
     end to produce financial statements that are ready for audit.

     Some of the problems that will have to be addressed in the next fiscal year are:

              •    The financial systems are not integrated with the grants management system.

              •    The agency’s failure to adhere to federal accounting standards.

              •    The accounting system does not fully comply with the U.S. Standard General Ledger.

              •    Failure to perform reconciliations in a timely manner.

              •    Inadequate internal controls between the procurement/contracting function and the accounting
                   office.

              •    Untimely and inaccurate recording of transactions.

     Many of these problems are being addressed as the FY 2005 financial statements are being prepared and
     audited. In addition, NEH needs to hire an accounting officer that is knowledgeable and qualified to super-
     vise the accounting staff and manage the financial operation.

     Strengthen Information Security

         •    As E-commerce increases, i.e., Grants.Gov, NEH will be more susceptible to outside and inside
              risks. In addition, telecommuting is also bringing additional security concerns. NEH’s OIRM must
              proactively monitor system intrusions to determine if user accounts and passwords have been com-
              promised.




NEH OIG Semiannual Report                                      6                                               September 2005
                    TOP MANAGEMENT CHALLENGES (Continued)

  Continue to Improve Planning and Performance Measurement in Accordance with the Results Act.

       •    The Endowment has made progress in the past several years. However, more needs to be accom-
            plished. The OIG recognizes that measuring the benefits of many programs is difficult. In many areas,
            NEH places more emphasis on outputs than outcomes. NEH should gradually have the divisions collect
            outcome-type data from grantees. For instance, while we learn that a high school teacher is imparting
            his/her new summer seminar knowledge to 250 students a year (guestimate), we should try to learn
            what effect it has on the students. Do they read more books on the topic, are they thinking about taking
            more courses on the same topic in college? What real effect does a summer seminar have on the stu-
            dents of the person attending the seminar? In addition, what does the school principal and the depart-
            ment chair see as the outcome of the teacher taking the seminar?

  Information Resource Management

       •    NEH has made significant progress on e-gov and is moving to the eventual goal of having grantees sub-
            mit complete proposals, reviewing the proposals on-line, and processing proposals electronically. This
            is a long-term government project being developed by several agencies working together. We will be
            listing this as a management challenge until a significant amount of grants are processed completely
            through e-gov.

  Human Capital

       •    The Comptroller General of the United States has cited human capital as a high-risk area. Similar to
            many federal agencies, NEH will be facing the retirement of a large amount of staff within the next
            several years. One office, the Office of Grant Management, has the possibility of having a complete
            turnover of staff within the next three to six years. NEH’s challenge is to evaluate how retirements will
            change the agency. Now would also be a good time to review workflow of all offices and divisions and
            determine if any workload and mission realignment is necessary.




NEH OIG Semiannual Report                                     7                                                September 2005
                                     INVESTIGATIVE ACTIVITIES

                                                      BACKGROUND

       The Inspector General Act provides the authority for the Office of Inspector General to investigate
       possible violations of criminal or civil laws, administrative regulations, and agency policies, which relate
       to the programs and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are
       efficient and effective means of receiving allegations or complaints from employees, grantees,
       contractors, and the general public. The OIG has obtained assistance from other OIGs, the Federal
       Bureau of Investigation, the Postal Inspection Service, and other investigative entities as necessary.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
       determination of the appropriate action to take. This can be an audit, an investigation, a referral to
       another NEH office or division, or a referral to another federal agency.

       As of April 1, 2005, two files were open. During the six months ended September 30, 2005, we
       received five “Hotline" contacts. We are holding two matters open as of September 30, 2005.


                                               OPEN AT APRIL 1, 2005

       One case involved a grantee institution and a project director who may have provided false information
       in grant applications. In accordance with NEH’s Policy of Research Misconduct, we asked the organiza-
       tion to perform an internal investigation and report the results to the OIG. Our review of the report sub-
       mitted by the institution revealed that research misconduct did not occur. This matter is now closed.

       The other case involved a teacher at a summer institute who did not attend classes. We closed this
       matter based on a cost benefit decision.

                                          CONTACTS DURING THE PERIOD


       We received five contacts during this reporting period. Three concerned internal matters, one con-
       cerned an external matter, and one contact was referred to an NEH division. The external matter was
       resolved by an NEH grantee after some preliminary questioning of the executive director. One internal
       matter was closed and two remain open.


                               MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

        None during this period.


                                        HOTLINE AND PREVENTION ACTIVITIES

        We maintain a local Hotline phone number, agency e-mail address, and an internet address to provide
        additional confidentiality for those persons bringing matters to the attention of the OIG. We continue to
        issue agency-wide e-mail messages informing NEH staff of violations that should be reported to the OIG.
        We also send e-mail messages several times during the year to inform NEH staff about the OIG
        operations. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.


                                                  ANONYMOUS E-MAIL

        We have on the NEH intranet and the internet a system for staff, grantees, contractors, etc. to report
        waste, fraud, abuse, and mismanagement in an anonymous manner.



NEH OIG Semiannual Report                                     8                                                 September 2005
                            INVESTIGATIVE ACTIVITIES (Continued)


                                   SUMMARY OF INVESTIGATION ACTIVITY



                                    Open at beginning of period       2


                                  Matters brought to the OIG during
                                         the reporting period         5


                                     Total investigative contacts     7

                                      Closed or referred during
                                         the reporting period         5


                                       Open at end of period          2




NEH OIG Semiannual Report                              9                  September 2005
                                          OTHER ACTIVITIES

                                     PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                              INTEGRITY AND EFFICIENCY

       The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992
       to coordinate and implement government-wide activities to combat fraud and waste in Federal
       programs and operations. OIG staff regularly attend ECIE meetings and provide information to the
       ECIE.

                                       REGULATORY AND LEGISLATIVE REVIEWS


       The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review
       proposed legislation and regulations. The reviews are made to assess whether the proposed legisla-
       tion and/or regulations (1) impact on the economy and efficiency of agency programs and operations,
       and (2) contain adequate internal controls to prevent and detect fraud and abuse. During this period,
       we provided the ECIE with comments on various matters affecting the Inspector General community.



                                              WORKING WITH THE AGENCY

        In this period, OIG staff attended and engaged in various NEH meetings - panel meetings (where
        grant applications are reviewed by outside consultants), pre-council meetings (where program staff
        discuss panel review results with the Chairman and his immediate staff), and the National Council
        meeting. In addition, the IG and Deputy IG attended the Chairman's monthly policy group meetings.
        An OIG staff person attended monthly NEH Employee Association meetings. OIG staff was also in-
        volved in the review of NEH administrative directives.

        The Office of Inspector General contributes to the discussions; however, the office does not partici-
        pate in policy making.

                                              OIG INTERNET AND INTRANET

        The OIG has listed several semiannual reports on the internet. The reports are accessible through the
        NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

        To enhance the NEH staff's recognition of the OIG mission and responsibilities, we provide links to
        several other Federal agencies such as the Office of Management and Budget, the General
        Accountability Office, the Office of Government Ethics, and the IGNET.



                                                 TECHNICAL ASSISTANCE

        Throughout the reporting period, OIG staff provided telephone technical assistance to NEH grantees
        and independent public accountants concerning various matters including the preparation of indirect
        cost proposals and the implementation of Federal audit requirements.




NEH OIG Semiannual Report                                   10                                                  September 2005
                                                                 TABLE I

                                        REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference                Reporting Requirements                                                               Page

       Section 4(a)(2)                 Regulatory and Legislative Reviews……………………………… 10

       Section 5(a)(1)                 Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)                 Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)                 Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)                 Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)                 Instances Where Information Was Refused or Not Provided…… **

       Section 5(a)(6)                 List of Audit Reports Issued………………………………………… 2

       Section 5(a)(7)                 Summary of Significant Reports…………………………………… 3-5

       Section 5(a)(8)                 Audit Reports - Questioned Costs….……………………………… 12

       Section 5(a)(9)                 Audit Report - Funds To Be Put to Better Use.…….…………….. 12

       Section 5(a)(10)                Prior Audit Reports Unresolved…………………………………..… *

       Section 5(a)(11)                Significant Revised Management Decisions………………………. *

       Section 5(a)(12)                Significant Management Decisions with which OIG Disagreed…..*



        * None this period

       ** While no information was refused or not provided, the audits of the Oracle Accounting System and Use of Donated
       Funds were seriously delayed because of the effort expended by NEH’s accounting staff to prepare for the agency’s
       financial statement audit.




NEH OIG Semiannual Report                                                   11                                                     September 2005
                                                       TABLE II
                                          INSPECTOR GENERAL-ISSUED REPORTS
                                                WITH QUESTIONED COSTS


                                                                               Number     Questioned    Unsupported
                                                                             Of Reports    Cost           Cost
         A. For which no management decision has been made by the                  -1-     $ 92,998     $ 55,506
            commencement of the reporting period.


         B. Which were issued during the reporting period.                         -0-    $ -0-         $-0-


                                     Subtotals (A+B)                               -1-    $ 92,998      $ 55,506


         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -0-     $ -0-        $ -0-


                  ii.   Dollar value of costs not disallowed (grantee              -0-     $ -0-        $ -0-
                        subsequently supported all costs).

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-         $ -0-
                       “Value of Services Received.”

         D. For which no management decision has been made by the                  -1-     $ 92,998     $ 55,506
            end of the reporting period.


         E. Reports for which no management decision was made within -1- $ 92,998 $ 55,506
            six months of issuance.
                                                       TABLE III
                                       INSPECTOR GENERAL-ISSUED REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                                   Number        Dollar
                                                                                                   Of Reports    Value

         A. For which no management decision has been made by the commencement                         -0-      $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-      $-0-

         C. For which a management decision was made during the reporting period.                      -0-      $-0-

                  i. Dollar value of recommendations that were agreed to by management.                         $-0-

                  ii. Dollar value of recommendations that were not agreed to by                                $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.              -0-      $-0-




NEH OIG Semiannual Report                                       12                                              September 2005
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  13                                            September 2005
